<html>
<title> - DIVERSITY IN THE COAST GUARD, INCLUDING RECRUITMENT, PROMOTION, AND RETENTION OF MINORITY PERSONNEL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     DIVERSITY IN THE COAST GUARD,
                         INCLUDING RECRUITMENT,
                        PROMOTION, AND RETENTION
                         OF MINORITY PERSONNEL


=======================================================================

                               (110-165)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
45-024                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)



        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

GENE TAYLOR, Mississippi             STEVEN C. LaTOURETTE, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
CORRINE BROWN, Florida               HOWARD COBLE, North Carolina
BRIAN HIGGINS, New York              WAYNE T. GILCHREST, Maryland
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York, Vice    TED POE, Texas
Chair                                JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Breckenridge, Rear Admiral Jody A., Director, Strategic 
  Transformation Team & Assistant Commandant for Human Resources.     4
Isherwood, Commander Master Chief Kevin D., Command Master Chief 
  for Chief Of Staff, United States Coast Guard..................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    42
Oberstar, Hon. James L., of Minnesota............................    57
Thompson, Hon. Bennie G., of Mississippi.........................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Breckenridge, Rear Admiral Jody A................................    61

                       SUBMISSIONS FOR THE RECORD

Breckenridge, Rear Admiral Jody A., Director, Strategic 
  Transformation Team & Assistant Commandant for Human Resources:

  Response to request for information............................    10
  Response to request for information............................    13
  Response to request for information............................    17
  Response to request for information............................    26
  Response to request for information............................    28
  Response to request for information............................    30
[GRAPHIC] [TIFF OMITTED] 45024.001

[GRAPHIC] [TIFF OMITTED] 45024.002

[GRAPHIC] [TIFF OMITTED] 45024.003

[GRAPHIC] [TIFF OMITTED] 45024.004

[GRAPHIC] [TIFF OMITTED] 45024.005

[GRAPHIC] [TIFF OMITTED] 45024.006

[GRAPHIC] [TIFF OMITTED] 45024.007

[GRAPHIC] [TIFF OMITTED] 45024.008

[GRAPHIC] [TIFF OMITTED] 45024.009

[GRAPHIC] [TIFF OMITTED] 45024.010

[GRAPHIC] [TIFF OMITTED] 45024.011

[GRAPHIC] [TIFF OMITTED] 45024.012

[GRAPHIC] [TIFF OMITTED] 45024.013

[GRAPHIC] [TIFF OMITTED] 45024.014

[GRAPHIC] [TIFF OMITTED] 45024.015



    HEARING ON DIVERSITY IN THE COAST GUARD INCLUDING RECRUITMENT, 
             PROMOTION, AND RETENTION OF MINORITY PERSONNEL

                              ----------                              


                     Wednesday, September 10, 2008,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. Good afternoon. Let me express my apologies. 
We are running a little bit late. The family of the late 
Stephanie Tubbs Jones was addressing a small group of us, 
wanting to express their appreciation for things we had done 
for the family, so that is why I am running a little late.
    This Subcommittee will come to order. Before we begin 
today's hearing, we pause to remember Lieutenant Commander 
Andrew Wischmeier, Aviation Survival Technician 1st Class David 
Skimin, and Aviation Maintenance Technician 2nd Class Joshua 
Nichols, who were killed when the helicopter in which they were 
conducting training exercises crashed last week near Honolulu. 
We also remember Commander Thomas Nelson, the Executive Officer 
of Air Station Bombers Point, who remains missing.
    Those who have died gave their lives in service to our 
great Nation, and their deaths remind us of the risks that all 
Coast Guard members face every day. Our prayers are with the 
families of those who have been lost to us and with their 
comrades throughout the Coast Guard and I ask that you join me 
in a moment of silence.
    [Pause.]
    Mr. Cummings. Today, I convene the Subcommittee to consider 
diversity in the Coast Guard, including the recruitment, 
promotion, and retention of minority personnel.
    In October of 2007, I visited the United States Coast Guard 
Academy to address the student body after a noose had been 
found in the effects of an African American cadet and in the 
office of an officer conducting diversity training.
    The discovery of the nooses was obviously shocking to the 
conscience and completely unacceptable at any Federal service 
academy. At that time, I emphasized to the Academy students 
that diversity and our mutual respect for each other are our 
greatest strengths as a Nation. Diversity is a promise that 
exists in every single individual, a promise that can only be 
cultivated and fully realized through our collective commitment 
to assure fair treatment to everyone.
    Yesterday, Congresswoman Sanchez, my colleague on the House 
Armed Services Committee, and I hosted a briefing conducted by 
the Rand Corporation at which Dr. Nelson Limb presented the 
options and recommendations that Rand had developed for leaders 
of the Department of Defense to assist them as they plan for 
diversity in all ranks of DOD services. I emphasized that 
expanding diversity is a challenge in all of the military 
services, not just in the Coast Guard and I think it is 
important for each service to learn from the successes and 
challenges in the other services.
    The key point the Rand Corporation made is the following: 
In order for any strategic plan for supporting diversity to be 
effective, leaders must define diversity and then they must 
also explain how they intend to measure progress toward greater 
diversity and how they will hold themselves and others 
accountable for their progress.
    While the Coast Guard is not a part of DOD, the lessons 
that Rand offered to the DOD are completely applicable to the 
Coast Guard. Under the leadership of Admiral Thad Allen, the 
Commandant of the Coast Guard, whom I know to be a man of the 
highest honor and integrity, the Coast Guard is taking steps to 
prioritize expansion of diversity. In July of this year, the 
Commandant indicated that the Coast Guard would ``redouble'' 
its commitment to creating a more diverse workforce and he 
announced new leadership in diversity initiatives the Coast 
Guard will now be pursuing.
    In August, the Commandant provided an update on the 
implementation of some of those initiatives in the form of a 
message issued to all members of the Coast Guard, commonly 
referred to as an All Coasts. The message described important 
steps the service is taking to expand this outreach. For 
example, the Commandant announced that Flag officers and Senior 
Executive Staff members would partner with minority-serving 
institutions, Hispanic-serving institutions, and Tribal Council 
institutions to raise the Coast Guard's visibility and to 
develop ongoing relationships. These are important initiatives 
and I am anxious to hear more about how the implementation is 
proceeding.
    However, drawing on the lessons presented by the Rand 
Corporation, it is imperative that the Coast Guard's diversity 
initiatives form a coherent tactical plan designed to implement 
the Coast Guard's specific diversity goals. Therefore, I also 
look forward to discussing today how the Coast Guard defines 
its goals and how it will measure progress toward the 
achievement of these goals.
    According to data from Defense Manpower Data Center, in 
2007, 13.8 percent of the officer corps and 16.9 percent of the 
members of the enlisted ranks of the Coast Guard were 
minorities. About 14 percent of the students in the class of 
2011 at the Coast Guard Academy are minorities, including 
individuals who self identify as being multiracial. These are 
strong numbers, but they can be stronger. Importantly, 
however--and this goes back to my earlier point--diversity 
should be defined to include not only the representation of 
certain groups, but their success and their effective inclusion 
in an entity.
    I firmly believe that the Coast Guard needs to bring the 
challenge of minority recruiting down to a personal basis. Each 
Flag officer and each commanding officer of an air station, 
sector, cutter, or buoy tender should be challenged to recruit 
one minority individual to apply to the Coast Guard Academy, 
the CSPI program, or to their officer candidate school. Current 
minority officers in the Coast Guard, as well as Coast Guard 
alumni, should be challenged to reach out to members of 
minority communities to present to them their firsthand 
knowledge of the opportunities associated with service in the 
Coast Guard. I strongly believe that recruiting minority 
service members cannot just be left to recruiters; it needs to 
be everyone's shared priority.
    Additionally, each service member must make it a priority 
to do all that he or she can do to create an atmosphere in 
which each individual feels his or her expertise and 
perspective are valued.
    With that, I look forward to hearing from Admiral 
Breckenridge and Master Chief Isherwood today as we examine the 
steps the Coast Guard is taking to ensure that our Nation's 
shield of freedom reflects the diversity that is truly one of 
the greatest sources of our Nation's strength.
    Now I recognize our distinguished Ranking Member, Mr. 
LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman, for the time and 
thank you for holding this hearing.
    Every day, more than 45,000 members, officers, and civilian 
employees carry out the Coast Guard's missions to safeguard 
life and property at sea. They perform these missions on the 
water, in the air, and at stations and units located throughout 
the Country. These men and women are the representatives of our 
Federal Government and the face of our Country in our ports and 
on the high seas. As such, it is important that the Coast Guard 
hire and retain the most qualified possible Coast Guard men and 
women, and not discriminate in hiring on the basis of ethnicity 
or gender.
    I look forward to hearing about some of the initiatives 
that are in place and those that are being planned to expand 
the diversity of the Coast Guard. I also would like to examine 
some of the circumstances which may be roadblocks to these 
initiatives. I am concerned about situations such as the lack 
of berthing space for female crew members aboard many of the 
Coast Guard's legacy vessels, which limits opportunities for 
Coast Guardsmen to build experience necessary for a successful 
career. I hope that the witnesses will discuss ways to enhance 
opportunities for young Coast Guardsmen to get this experience 
in the future.
    I want to thank our witnesses for coming here today and for 
their willingness to address these issues, and I look forward 
to their testimony and I yield back.
    Mr. Cummings. Thank you very much.
    Ms. Richardson? Mr. Coble?
    Very well. We will proceed with our hearing.
    The Chairman of the House Homeland Security Committee, 
Chairman Bennie Thompson, has prepared a statement for the 
record and, without objection, it will be included in the 
record and is so ordered.
    I want to thank Chairman Thompson for his leadership on 
this issue and look forward to working with him to ensure that 
we achieve our shared goals of expanding diversity in the Coast 
Guard.
    We will now hear from our two witness, our only witnesses. 
Rear Admiral Jody Breckenridge is the Assistant Commandant for 
Human Resources with the United States Coast Guard, and Master 
Chief Petty Officer Kevin D. Isherwood is the Command Master 
Chief for the Chief of Staff of the United States Coast Guard.
    We welcome your testimony and we will hear from you, Rear 
Admiral.

   TESTIMONY OF REAR ADMIRAL JODY A. BRECKENRIDGE, DIRECTOR, 
STRATEGIC TRANSFORMATION TEAM & ASSISTANT COMMANDANT FOR HUMAN 
   RESOURCES; AND COMMANDER MASTER CHIEF KEVIN D. ISHERWOOD, 
 COMMAND MASTER CHIEF FOR CHIEF OF STAFF, UNITED STATES COAST 
                             GUARD

    Admiral Breckenridge. Thank you and good afternoon, Mr. 
Chairman and distinguished Members of the Committee. As the 
Chair said, I am Rear Admiral Jody Breckenridge, the Coast 
Guard's Assistant Commandant for Human Resources.
    I am pleased today to be joined by Master Chief Isherwood, 
who will speak in just a moment, and also Mr. Curt Odum, our 
Deputy Director for Personnel Management, and Rear Admiral Dan 
May, who is our Chief of Reserve and Training.
    In addition to my human resource duties, I am also the 
Director for the Strategic Transformation Team, with 
responsibilities to synchronize our efforts to modernize the 
Coast Guard. I departed duty as Commander of the 11th Coast 
Guard District in California in the summer of 2007 to assume 
duties as the Director of the Team.
    Mr. Chairman, I request that my written statement be 
entered into the record.
    Mr. Taylor. [Presiding] Without objection.
    Admiral Breckenridge. Mr. Chairman, since assuming my 
duties as Assistant Commandant for Human Resources on 31 May of 
this year, one of my top priorities has been and remains our 
diversity action plan. I am personally involved in the 
strategic plan and the tactical execution of each of the 
initiatives. First, it is the right thing to do with the 
changing demographics of our Nation. We would like more 
citizens to know of the opportunities in the Coast Guard and to 
consider service in the Coast Guard, whether as part of our 
full-time military, our part-time military or reserve force, 
our civilian workforce, or our volunteer workforce, the Coast 
Guard Auxiliary.
    Second, we have a large stakeholder base, both domestically 
and internationally. We need to be able to interact effectively 
to achieve new safety and security standards for the maritime 
community. Mr. Chairman, I know you are aware of the concerns 
raised over our marine inspectors' and investigators' capacity 
and experience level. Quite frankly, we have good people, but 
we are too homogeneous in our sourcing. We tend to be 
predominantly Coast Guard bred and developed in that community.
    Third, the simple reality is heterogeneity offers ways to 
look at and solve problems that homogeneity does not. So what 
are we doing? We are looking across a career continuum. It is 
not enough to hire more people; we must also develop them and 
retain them. Within our plan we have addressed tangible, 
actionable steps that create a foundation to build on for 
sustainability. But, to be honest, our current plan is more 
focused on assessions at this time.
    We are doing better in our enlisted corps than our officer 
corps. We developed the Strategic Metropolitan Area and 
Recruiting Territory, known as our SMART program, which uses 
data to drive our recruiting efforts, focusing our efforts on 
high schools and regions with high minority populations. This 
effort, since its inception in 2003, when I was the commanding 
officer of the recruiting command, has resulted in 30 to 39 
percent minority assession each year.
    We also have robust opportunities for enlisted to move into 
our officer corps from our enlisted corps. Through our officer 
candidate school, direct commission programs, enlisted to 
warrant, warrant to lieutenant, and to our Academy, a program 
we are re-emphasizing this year. A number of our minority 
enlisted, along with their majority counterparts, move from our 
enlisted ranks to the officer corps through these programs.
    Within our officer corps, we are challenged by our need for 
more than 47 percent of our officer annual assessions to have 
technical degrees: math, science, engineering, operations 
research, and computer majors. STEM, which stands for Science, 
Technology, Engineering, and Math, is a frequently used term to 
describe these fields. To meet that requirement, our Academy 
must produce 70 percent of their graduates with these degrees.
    To expand the base of under-represented students at the 
Academy, we are looking to expand their participation in our 
Academy Introduction Mission program, also known as AIM. We are 
seeking assistance from Congress, sir, and getting the word out 
for this opportunity. We are also more actively marketing our 
preparatory program, called Coast Guard Academy Scholars 
Program, both externally and internally.
    To assist Congress in understanding Academy requirements, 
we are currently advertising a position I am taking out of hide 
as a bridging strategy until I can get on budget to work with 
Congressional staffs to identify candidates or new affinity 
groups we should be engaged with.
    For our college student precommissioning initiative, we are 
looking at two-year schools to select participants whom the 
Coast Guard will pay for their last two years of school and 
then attend officer candidate school. We are also looking at 
two-year schools for the Coast Guard Academy to partner with, 
schools with strong STEM curricula to select students at the 
one-or two-year point to attend the Academy.
    As part of our outreach initiatives, our Flags and SES's 
are establishing relationships with minority-serving 
institutions. In some cases we are re-establishing 
relationships, such as those we previously had with Morgan 
State University. Mid-grade and junior officers are also being 
assigned as part of the outreach team. This alignment creates a 
mentoring chain of sustainability with the institution. As 
Flags and SES's retire, they will be replaced. As the more 
junior officers become more senior, more junior officers will 
continue to be assigned.
    In the retention arena, we are working on mentoring and 
development of our mid-grade officers and enlisted, expanding 
requirements for individual development plans for lieutenants, 
lieutenant commanders, E-5s and E-6s. We believe in the 
networking and professional development opportunities offered 
by affinity groups, such as the National Naval Officers 
Association, and are increasing our participation at these 
venues.
    A few years ago, participation across the board in the 
National Naval Officers Association had waned, and it was 
through the efforts of then Captain Manson Brown, U.S. Coast 
Guard, now Rear Admiral Brown, that the organization was 
rejuvenated. We have an active diversity advisory group 
composed of members of all of our corps forces from across the 
Coast Guard. They meet with the Commandant to provide him and 
other senior managers with concerns and recommendations, and 
they participated in the development of our action plan.
    We also have a number of similar initiatives focused on our 
civilian workforce to bring in new perspectives and youth. We 
are leveraging new opportunities with modernization, including 
looking at virtual organizations and growth, such as the Marine 
Safety Program, to put new assession programs in place and to 
enhance workplace options to appeal to an even greater talent 
pool.
    Mr. Chairman, these are a few of our initiatives. I 
appreciate this opportunity. It is a topic I am passionate 
about and committed to. Our service has demonstrated success if 
you look at where women are in our service. We remain the only 
armed service where every career field is open to women, a 
standard we established in 1977. We are the only service where 
a woman has achieved the number two position in the service.
    We cannot say the same for continuity for our minorities. 
Today, 19.5 percent of the 41 of our Flag corps are women and 
minorities. One-third of our SES corps are minority and 44 
percent are minority or women, a result that has occurred under 
Admiral Allen. We have some bright spots, but we still have 
much to do. I know that you, sir, are committed to assisting us 
in this journey, and we look forward to partnering with you and 
the other Members of Congress.
    I look forward to the questions in our discussion, sir.
    Mr. Cummings. [Presiding] Thank you very much, Commander.
    Chief Isherwood. Good afternoon, Mr. Chairman and 
distinguished Members of the Committee. I am Master Chief Kevin 
Isherwood, Command Master Chief for the Chief of Staff of the 
United States Coast Guard. I have served in the Coast Guard for 
26 years and most recently served in the 11th District with 
Rear Admiral Breckenridge. I am happy to appear today alongside 
Admiral Breckenridge and Mr. Curt Odum to answer any questions 
that you may have on diversity in the United States Coast 
Guard.
    As the Command Master Chief, I am the senior enlisted 
advisor to the Chief of Staff and an integral member of Rear 
Admiral Breckenridge's staff. My main function is to provide a 
field reality check in all situations. One of the greatest 
values a command master chief offers is their relationship and 
understanding of the workforce issues.
    To remain credible and to prevent gaps from growing in 
these critical relationships, I spend a considerable amount of 
my time visiting and communicating with my units. I am a 
resource person who assists Coast Guard personnel and 
subordinate commands to work through local and national issues, 
including diversity, with the intent of resolving these issues 
at the lowest effective level.
    While I am not directly in the chain of command, I help 
strengthen the chain of command by working closely with the 
folks within the chain of command, providing personal 
experiences and ground truth feedback. This enhances 
communications and fosters a better understanding of the needs 
and viewpoints of all Coast Guard members and their families. 
In other words, my job is to balance workforce desires with 
mission requirements.
    The vision of the Command Master Chief Program is: 
proactively assist Coast Guard members to be ready today, 
preparing for tomorrow. Command master chiefs advise all team 
Coast Guard members on personnel policies, programs, ideas, and 
opportunities pertinent to their well-being, allowing them to 
focus on performing their mission and enhancing their careers.
    Additionally, by advising, consulting, and participating in 
high-level policy issues, command master chiefs play an 
important role in the continuous improvement of the Coast Guard 
with the goal of all Coast Guard members attaining their full 
potential.
    Again, thank you for the time and thank you for providing 
me an opportunity of a lifetime speaking before you on this 
important topic.
    Mr. Cummings. Thank you very much.
    Rear Admiral, let me go back to something you said. I think 
you mentioned a program that you had with Morgan State 
University at one time?
    Admiral Breckenridge. Mr. Chairman, we had a relationship 
with Morgan State University and it was predominantly for our 
college student precommissioning initiative program. But over 
time, for some reason, that relationship waned. I can't tell 
you why, but we are committed to reinitiating that relationship 
and reinvigorating it, particularly as we look at our 
requirements for STEM-oriented students, sir.
    Mr. Cummings. What did the program? Because Morgan State is 
in my district, that is why I am curious. Matter of fact, I am 
on the board of Morgan State also. Go ahead.
    Admiral Breckenridge. Yes, Mr. Chairman. Morgan State 
actually acted at one time as an advisor to the Coast Guard as 
we were looking at some of the challenges that we had with 
diversity, provided some insights into what we should be doing 
from program perspective, and then we also sought their advice 
on what we should be doing as we were looking at the CSPI 
program--it had a different name at the time--and how we should 
be seeking out minority students to avail them of the 
opportunities that were in that program, Mr. Chairman.
    Mr. Cummings. So you are looking at going back, is that 
what you said?
    Admiral Breckenridge. Yes, sir. Mr. Odum and I have been 
talking to the Dean of Engineering at Morgan State, and we have 
yet to get our schedules to work out to have a sit-down 
meeting, but we intend to go back up and sit down and talk with 
the dean to look at the engineering field and where we perhaps 
should be looking.
    Mr. Cummings. Thank you very much.
    Now let's go to another college, and that is the Coast 
Guard Academy. The Comprehensive Climate and Cultural 
Optimization Review effort conducted at the Academy, dated 
February 2007, found that ``The number of African American high 
school students who are academically ready for an Academy 
experience, eligible and interested in military services 
estimated at only 640 young people per year in the Nation.'' 
Where does this number come from and what is limiting this 
number? Is it academic qualification or interest in military 
service, or both?
    Admiral Breckenridge. Mr. Chairman, that was done for us by 
an independent contractor looking at an enrollment management 
scheme. It takes the full spectrum of academics, physical 
requirements, and across the board. It represents that one 
contractor's opinion, sir.
    As we look at the Academy, we are committed to the open 
access. As I noted, sir, in my statement, Mr. Chairman, our big 
challenge is looking at the propensity of students across this 
Nation to go into STEM majors. That is an absolute requirement 
for our workforce and, sir, as I noted, 70 percent of the 
Academy graduates is the target for them to produce with STEM 
degrees.
    Mr. Cummings. But students who are interested in military 
service, but perhaps not academically or physically prepared 
for the rigors of the Academy, the Academy can offer a 
placement in a preparatory school, is that right?
    Admiral Breckenridge. Mr. Chairman, we do have preparatory 
schools. We have two that we are focused on right now. That is 
the Coast Guard's Scholars Program. I don't think that has been 
a well advertised program, and we are working very hard right 
now on advertising it. If you go to the Coast Guard Academy 
website, it is advertised there. It is in every package that 
goes out. As we look at parents' packages, it is in all of 
their packages. But we are also marketing it inside the Coast 
Guard for those within our own workforce who might have the 
propensity to go to the Academy but might need an academic 
boost, Mr. Chairman.
    Mr. Cummings. So how many students does the Coast Guard 
send to these preparatory schools each year, do you know?
    Admiral Breckenridge. Sir, right now we are at 61 tabs, Mr. 
Chairman.
    Mr. Cummings. Sixty-one?
    Admiral Breckenridge. Yes, sir, which represents about 21 
percent of our student population at the Academy, which 
compares with the other academies. If you look at their 
preparatory programs, their preparatory programs represent 
about 25 percent, Mr. Chairman.
    Mr. Cummings. And so what percentage of those students then 
come into the Academy? In other words, you have got a number 
going. That doesn't mean that all of them are going to end up--
a number going to the preparatory school.
    Admiral Breckenridge. Yes, sir.
    Mr. Cummings. I am just trying to figure out when 
everything filters out, how many of those then go on to the 
Coast Guard Academy.
    Admiral Breckenridge. Mr. Chairman, I would like to provide 
that for the record. To be honest, my memory is failing me 
right now.
    What I would like to offer you on that, though, is the 
Academy has focused not just on getting students into the 
Academy, but is really focused on retention once they are in. 
The goal of all of these programs is to produce individuals as 
they become commissioned officers who are positioned for 
success in our service. The Academy, as they have looked at the 
programs that they have and the focus that they have had on 
retention in recent years, has gone from 66 percent to a 75 
percent retention rate.
    Mr. Cummings. Is that where we are right now, 75 percent?
    Admiral Breckenridge. Yes, Mr. Chairman, that is where we 
are.
    Mr. Cummings. How does that compare to the other academies?
    Admiral Breckenridge. The other academies--I would like to 
provide that for the record, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.016
    
    Mr. Cummings. All right. So it is 75 percent. And you are 
saying before this it was 61 percent?
    Admiral Breckenridge. That is correct, Mr. Chairman.
    Mr. Cummings. You know, a lot of young people, when they go 
into the academies--it is not just this academy, but I am also 
on the Board of Trustees of the Naval Academy. We have people 
who come in and maybe the military atmosphere is not something 
that is conducive with their personalities; others, academic 
problems, what have you. Certainly finance is not an issue 
here.
    But what do you find the reasons we are losing young 
people? Is there anything unique to the minority population we 
are losing, reasons why, as compared to the rest of the student 
body?
    Admiral Breckenridge. Mr. Chairman, I can't offer an 
insight at large that there is a distinctive difference between 
our minority students and the larger population. What I would 
offer, I think, is a good correlation and why we want to look 
at our AIM program. When we look at the students who go to the 
AIM program, there is a very high correlation to those who go 
and get access to what it would be like to attend an academy 
who then make a decision to attend the Academy and then 
successfully come out the other end to be a commissioned 
officer, Mr. Chairman.
    Mr. Cummings. First of all, I agree that it is not enough 
to admit students; we want to make sure that they do well and 
then go on to do what other students do, that is, to become 
leaders. So the retention program makes a lot of sense. I am 
just wondering what is entailed in that. What would somebody in 
that program get that somebody else might not get? Do you 
follow me?
    Admiral Breckenridge. Yes, sir.
    Mr. Cummings. In other words, the general population might 
not get what?
    Admiral Breckenridge. Mr. Chairman, is the question 
compared to the population----
    Mr. Cummings. In other words, what is the retention----
    Admiral Breckenridge.--in the civilian sector versus----
    Mr. Cummings. In other words, what I am asking you is, is 
there something called a retention program? Is that true?
    Admiral Breckenridge. Mr. Chairman, we have retention 
initiatives and we look at retention rates.
    Mr. Cummings. Okay, fine. There are things that you do to 
try to make sure there is retention of these minority students, 
is that correct? Is that what you are saying?
    Admiral Breckenridge. As we look at the atmosphere at the 
Academy, Mr. Chairman, we are concerned that--or we want to 
ensure that all students feel that they are valued at the 
Academy and that they will have the opportunity to succeed. If 
we look at our academic population at the Academy, we are 
working on diversifying that so that, as students have issues, 
they feel comfortable having access to individuals that they 
feel they may need to address things with. We have also focused 
on the climate at the Academy so that, if there are issues, 
cadets feel that they can bring those issues to the attention 
of the chain of command so that they can be addressed.
    As you know, any academy, Mr. Chairman, has a mentorship 
program within the cadet or the student population itself, but 
on top of that, within our headquarters, we have an Office in 
Leadership and we have hired a new individual that is looking 
at our mentorship programs. In fact, we are linking junior 
officers who are out in the field up with cadets so that they 
know what it is like once they finish through the Academy, what 
is it going to be like joining the officer corps of the Coast 
Guard, Mr. Chairman.
    Mr. Cummings. Now, the February 2007 report also stated 
that approximately 7 percent of the Academy staff and faculty 
are minority, compared with about 24 percent of the Coast Guard 
workforce and 14 percent of the corps of cadets. I just want to 
ask how many African American teachers do you currently have at 
the Academy and how many Hispanics, and what are you doing to 
increase those numbers, going to the statement that you just 
made, by the way?
    Admiral Breckenridge. Mr. Chairman, I will provide the 
numbers for the record. There is a concerted effort as we look 
at each one of the vacancies that we have to make sure that we 
have a very broad outreach, so we diversify the pools of 
individuals that we are considering for each position that 
comes available.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.017
    
    [GRAPHIC] [TIFF OMITTED] 45024.018
    
    Mr. Cummings. All right, thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you very much.
    Thank you both for your testimony.
    Admiral, just a question before I talk about some of the 
other specifics. I was just talking to Mr. Rayfield, and a week 
from Saturday, in my district, we are going to have our 
military academy information day. Does the Coast Guard attend 
those on a regular basis or do you need to be invited?
    Admiral Breckenridge. We attend a number of those on a 
regular basis, sir. I won't say that we have visibility of 
every one of them, so we are always looking for new 
opportunities.
    Mr. LaTourette. Okay. I don't know how it is in the 
Chairman's district or other Members' districts, but when we go 
through the military screening, which we do in November, we 
often find that the Naval Academy is over-subscribed and we 
have more applicants than we can satisfy with nominations.
    I don't know how we can get it done, but I bet you could 
get more customers in more districts if we worked out a way, 
Chairman, to have the Coast Guard present at these military 
academy information days. Maybe a young man or a young woman 
that thinks the Navy is right for them, and it doesn't work out 
because of numbers in terms of what the Member nominates or the 
Senator nominates, perhaps could switch over and get into the 
competition for one of the slots at the Academy.
    So I guess the question is, is there any reason that the 
service wouldn't, if we sort of worked this out between us and 
sent a memo and asked the Command to participate, any 
impediment to doing that?
    Admiral Breckenridge. No sir, just number of events and 
people on a single night. But we would welcome that as a 
challenge.
    Mr. LaTourette. Okay. Just from my area, I think it would 
be a good idea, because I think, in this day and age, any young 
person that wants to serve their Country in the armed forces is 
a gift and I hate to turn them away. It becomes sort of a sad 
thing when you have people raring at the bit to go. And these 
are young people; these are the best and the brightest. I 
forget what the requirements are, but it is like a 3.5 average, 
and a lot of these people at 18 have done more than some people 
I have met in their 50s and 60s, quite frankly, in terms of 
Eagle Scout activities and other things.
    So I think those that don't make the cut, in terms of 
nomination, not because of anything else, I think the Coast 
Guard would be glad to have some of them.
    Admiral Breckenridge. Yes, sir. The resource that I was 
talking about that we intend to put on the Congressional 
Affairs Staff would be specifically to interact to make sure 
that people had visibility of the requirements of our Academy 
and also to make sure that we had full visibility of these 
opportunities and that we did show up.
    Mr. LaTourette. Okay. I thank you for that.
    The Coast Guard Academy is the only service academy, of 
course, that considers applicants on the merit of their 
qualifications and open competition, and not through the 
nomination by the President, the Vice President, or Members of 
Congress. I would ask you how does the open application process 
impact the size and quality of the applicant pool at the 
Academy?
    Admiral Breckenridge. Sir, we get a number of people who 
look at the Coast Guard Academy but, quite frankly, we are 
looking for a larger pool and we are looking for different 
composition within that pool. We do not have the visibility, 
the national visibility that our sister service academies have, 
nor, if you look at the alumni sheer numbers that they have and 
reach that they have through their alumni, as well as the 
histories of our services where minorities have served, I think 
there are some differences there that become challenges for us.
    Mr. LaTourette. Has the Coast Guard begun to look at what 
changes would be required to transition to the nomination-based 
system that is spelled out in the House-passed Coast Guard 
reauthorization bill?
    Admiral Breckenridge. We have started to look at that, sir, 
and, to be blunt, we do have some concerns about there being 
some potential barriers. Given the size of the population that 
actually is in an entering class at the Coast Guard Academy, it 
is less than 250 in a very strong year and can be less than 200 
in other years. So given the small numbers and then just 
given--right now, anybody across the Country--we are not 
limited by any geographic boundaries that are in the nomination 
process; we can take 15 people from the same high school into 
the Academy. We think that is a plus, sir, but we need to 
change what is in the pool that we have right now.
    Mr. LaTourette. Have you or anybody at the service ever 
collected any data, aside from the question of diversity, on 
diversity in terms of geography? And by that I mean do most of 
the people that apply to your academy or seek to become in the 
enlisted corps come from the coasts and areas that border 
water, as opposed to the young fellow that is in Oklahoma or 
Nebraska?
    Admiral Breckenridge. Yes, sir, we have looked at the 
demographics, and there are six States that we are 
predominantly from. California is one of them. Not too 
surprisingly, the Northeast represents a large portion. We do 
get a number from Maryland, sir. So, yes, sir, we have looked 
at those demographics.
    Mr. LaTourette. And I would think Alaska too, probably?
    Admiral Breckenridge. I don't remember where Alaska was on 
the list, sir, but I would be happy to provide that.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.019
    
    [GRAPHIC] [TIFF OMITTED] 45024.020
    
    [GRAPHIC] [TIFF OMITTED] 45024.021
    
    [GRAPHIC] [TIFF OMITTED] 45024.022
    
    [GRAPHIC] [TIFF OMITTED] 45024.023
    
    [GRAPHIC] [TIFF OMITTED] 45024.024
    
    [GRAPHIC] [TIFF OMITTED] 45024.025
    
    Mr. LaTourette. Okay. Then, lastly, two quick things. The 
Chairman mentioned Morgan State and he also mentioned our 
colleague who has recently passed, Stephanie Tubbs Jones. She 
has a great engineering school, Cleveland State University, in 
her district as well. One of the criticisms I get when you talk 
about outsourcing this, that, and the other thing, a lot of 
people coming out of that engineering program say that they 
can't find jobs; why are firms hiring engineers that are 
trained from other countries rather than American-made, born 
engineers.
    So is there in your strategy, aside from the Morgan States 
of the world, a plan to sort of reach out to, if the skill set 
that you are looking for are engineers or people with 
engineering training, to reach out to all of the engineering 
programs in the Country that might increase the diversity that 
we are talking about?
    Admiral Breckenridge. Yes, sir. We are in professional 
associations that look both at Naval engineering, civil 
engineering, and engineering in general, and that are 
affiliated with most of the institutions that produce engineers 
for this Country. We are trying to focus our effort, instead of 
going very broadly, which is something that we did in the past 
and we weren't able to sustain it. If we want relationships 
with schools, we are trying to start small and make sure that 
we understand what their requirements are and that we can 
produce results out of that, both for the school and for 
ourselves, that we can then build on and expand out.
    Mr. LaTourette. Now lastly, in my opening statement I 
talked about the observation that there may be some berthing 
shortages for women on some of the legacy vessels. Is the 
service addressing that and, if so, how?
    Admiral Breckenridge. It is being addressed, sir. It has 
been addressed on some of our legacy assets. It is certainly 
true that as we look at the women who serve, that there are 
sometimes constraints in individual assignment cycles, where a 
berth may not be available on a particular unit that they want 
to go to. But there is no class of vessels that is closed to 
them. And as we look at our new national security cutters 
coming out, they offer many more options in berthing spaces 
that allow us to look at more opportunities for women.
    Mr. LaTourette. Thank you very much.
    Admiral Breckenridge. Yes, sir.
    Mr. Cummings. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, for holding this 
hearing. It is certainly an eye opener to have the opportunity 
to look at the different academies and what percentages. It 
should not surprise anyone that the military academy leads the 
way in the greatest diversity.
    Ms. Breckenridge, I want to get to something the Chairman 
brought up. As a former Coastie, when Congressman Oberstar 
first proposed that Members of Congress should be allowed to 
nominate people, at first I was a little taken aback. And the 
more I thought about and the more I look around the House 
Floor, at the diversity on the House Floor where we are 
selected by 700,000 Americans all over the Country who pick a 
Congressman, and quite often Congressmen tend to nominate 
people that they are comfortable with, that they think would be 
good officers.
    My personal view, having thought about this, is that we 
would expand your pool of recruiters by 535, that the analogy 
that Mr. LaTourette was talking about, I see it every year. I 
have at least 20 great kids for 5 slots that I am promised, and 
I guarantee that if one of those great kids, if I said, you 
know what, the only slot I have open is the Coast Guard 
Academy, will you take it? I guarantee one of those 14 that are 
left out, or 15 that are left out, would jump at the 
opportunity. I think the Coast Guard Academy would get some 
great kids that didn't know of the opportunity or that you 
didn't get a chance to know just because of your limited 
resources.
    So having stated my opinion now on Mr. Oberstar's proposal, 
I am curious, what is the Commandant's opinion?
    Admiral Breckenridge. Sir, I would be happy to give you my 
opinion.
    Mr. Taylor. Okay.
    Admiral Breckenridge. I don't want to put words in the 
Commandant's mouth.
    Mr. Taylor. But it is obviously easier to pass something 
that regards the Coast Guard if the Commandant is in favor of 
it.
    Admiral Breckenridge. Yes, sir. The organization does feel 
that we see barriers in there, and the barriers are, first of 
all, it is an extended application process. In the environment 
in which you compete for youth today, anything that has 
multiple numbers of steps and takes a long period of time 
creates a barrier. And, quite frankly, there are students who 
won't apply. I think one of the reasons the other----
    Mr. Taylor. Admiral, you haven't answered my question. 
Specifically to the Oberstar proposal to allow Members of 
Congress to nominate young people to the Coast Guard Academy, 
has the Coast Guard taken a position?
    Admiral Breckenridge. Our position is that we prefer the 
system that we have today, sir.
    Mr. Taylor. I am sorry to hear that, for all the reasons 
that I just outlined and for the reasons that the Chairman held 
this hearing. I happen to think, in retrospect, that Mr. 
Oberstar's proposal has a heck of a lot of merit.
    Admiral Breckenridge. Well, we hope, sir, that----
    Mr. Taylor. And, by the way, works with the Merchant Marine 
Academy, which is about the same size as your academy.
    Admiral Breckenridge. Sir, we would be happy to provide for 
the record the statistics between the academies, because we 
don't believe the statistics show that, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.026
    
    Mr. Taylor. Well, okay, please correct me, because what I 
am looking at is the Merchant Marine Academy. Typical class is 
about 285. Coast Guard Academy, typical class around 200. That 
is not a whole lot of difference. I can see the difference 
between yourself and the Air Force Academy.
    Admiral Breckenridge. Yes, sir. Yes, sir, I think we are 
doing slightly better than the Merchant Marine Academy. If you 
look at African Americans, we are doing better than the 
Merchant Marine Academy. With Asians we are doing better than 
the Merchant Marine Academy. With Hispanics we are doing better 
than the Merchant Marine Academy. With Native Americans----
    Mr. Taylor. Admiral, I thought your point was that, again, 
with 535 additional recruiters and the fact that you are only 
going to have about 200 to a class, that could complicate 
things, and I understand that. But apparently the Merchant 
Marine Academy handles that problem I guess at least to the 
satisfaction of most of the Members of Congress who are 
nominating people.
    Admiral Breckenridge. Sir, I can't speak to how Congress 
views that. I certainly respect that opinion. It would be our 
hope, sir, that since we do demonstrate that, at this point, 
with the system we have, that we are doing better, that working 
with Congress to look at the AIM program and expanding the 
understanding and opportunity that exists at the Academy, that 
we would do better than the other academies overall with the 
open system for competition that we have for the Academy.
    Mr. Taylor. I see the yellow light, so just for the heck of 
it, who serves on your selection committee now? How big a 
committee is it? What is the breakdown between active service 
and retirees? What is the breakdown by rank? Or does it 
fluctuate year from year?
    Admiral Breckenridge. I would be happy to provide that for 
the record, sir.
    Mr. Taylor. You don't know?
    Admiral Breckenridge. I don't have that at my fingertips, 
no, sir.
    Mr. Taylor. Could you give me a rough guess?
    Admiral Breckenridge. No, sir, I would not want to do that 
for the record. I would be happy to provide that, sir, for you.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.027
    
    Mr. Taylor. Have you ever served on one of these boards?
    Admiral Breckenridge. I have not served on one of the 
boards.
    Mr. Taylor. How about you, Chief?
    Chief Isherwood. No, sir, I have not served on one of those 
boards.
    Mr. Taylor. Okay. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Admiral, it is good to have you and the Master Chief with 
us. Admiral, you may have touched on this earlier, but let me 
ask you this question; and I am talking about specific numbers. 
Let me, first of all, define minority enrollment. I guess when 
we say minority enrollment, it probably applies to any 
applicant who is not a male Caucasian. Is that accurate?
    Admiral Breckenridge. Sir, we do not include women as a 
minority; we track women separately.
    Mr. Coble. All right, let me go back to my question. How 
does the U.S. Coast Guard Academy minority enrollment compare 
with other academies? I think you just, in response to Mr. 
Taylor, said it was favorable. Do you have specific numbers? If 
not, I would like for you to make those available to us.
    Admiral Breckenridge. I would be happy to provide those for 
the record. I do have the percentages in front of me, and what 
I will say is that when you look at women, for a number of 
years the Coast Guard has far exceeded any of the other 
academies.
    Mr. Coble. Now, do you all maintain separate numbers as to 
females, African American, Hispanics? Do you break it down that 
thoroughly?
    Admiral Breckenridge. Yes, sir, we can.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 45024.028
    
    Mr. Coble. And you can make those numbers available to us?
    Admiral Breckenridge. Yes, sir, we can.
    Mr. Coble. All right. You may have touched on this with Mr. 
LaTourette and Mr. Taylor. How does the current application 
process compare to those that are in place at the Merchant 
Marine Academy, which is comparable student body number-wise to 
you all, and the other service academies whose student bodies 
are probably more than four times the enrollment at the Coast 
Guard Academy?
    Admiral Breckenridge. As we talked to the Merchant Marine 
Academy and look at their process, I think that we are able to 
do early acceptances, which although the other academies do, we 
can float our numbers with much more ease, and I think we move 
through the process much faster than they do.
    Mr. Coble. Now, to reiterate, Admiral, to make sure I am 
reading it correctly, you did say that the Coast Guard Academy 
compares favorably with all the other academies.
    Admiral Breckenridge. I was comparing the Coast Guard 
Academy, sir, to the Merchant Marine Academy. There is no 
question, if you look at some of the other academies, that in 
some arenas they are doing better than we are if you look at 
specific categories. Specifically, if you look at Hispanics, 
the Naval Academy is doing much better than all the other 
services right now. So it goes category by category, sir. Where 
the Coast Guard stands out is with women, sir.
    Mr. Coble. All right, how many minority officers have been 
advanced to Flag rank in the last three years?
    Admiral Breckenridge. Right now we have one African 
American Flag officer, sir, we have two Hispanics and we have 
five women.
    Mr. Coble. All right. Finally, Admiral, do you or the 
Master Chief have any accounts you can share with us regarding 
recruiting under-represented groups of officers, enlisted, 
civilians, reservists, et cetera, to share with the Committee?
    Admiral Breckenridge. Yes, sir. As I had mentioned, the AIM 
program certainly, I think as we look at our college 
scholarship programs we have, of which the CSPI, or the College 
Student Precommissioning Initiative opportunity that exists, I 
think that we don't have more people apply just simply because 
people don't know of the opportunities. We are a small service 
and our reach only goes so far, so I think that is one of our 
challenges and why we want to put a resource on the Hill to 
work with Congress to look at the opportunities that exist in 
your districts.
    The other opportunity that exists is as we look at the 
Coast Guard Academy, we have renewed the Board of Visitors that 
we have, which we have asked Members of Congress to serve on, 
and certainly through that venue we would look at Congress to 
help us with recruiting and leveraging opportunities without a 
formal nomination process.
    Mr. Coble. Thank you both.
    Mr. Chairman, with your permission, I have a Judiciary 
meeting I have to attend, but thank you again for having held 
this hearing.
    Mr. Cummings. Thank you very much.
    Rear Admiral, before we get to Congresswoman Richardson, 
let me just make sure I am clear on something. You said 
something that is going to keep me awake tonight. You said that 
you have 200 people, and you said that if you got 15 from the 
same high school, there is nothing wrong with that, pretty 
much. I see a lot wrong with that, when we have got hundreds of 
high schools. I mean, I probably have, in my one Congressional 
district, about 50.
    Hear me, now. And if there is nothing wrong with, out of a 
class of 200, 15 coming from the same high school, I mean, it 
should concern all of us. And let me tell you what is bothering 
me. When the proposal that Mr. Taylor was talking about was 
floated, we got a lot of response on that proposal, and a lot 
of those responses, it appeared--I am just telling you what I 
got--was a group of people who basically have legacy situations 
going on. You have a lot of people who love the Coast Guard. 
Don't get me wrong, there are a lot of wonderful people coming 
from wonderful States. But this can be the situation from now 
until I am in Heaven for 200 years.
    At some point, just because--I mean, if you have a few 
States that seem to be getting all the folks, we cannot use an 
excuse that it is a small situation. Taxpayers' dollars are 
paying every dime, every dime for that academy, and if it is 
small and we don't have the budget, we need to work together to 
make sure people know about the Academy and know about these 
opportunities. There is no excuse for us, all of us. And I am 
not knocking the Coast Guard, but it bothers me if somebody 
tells me that it would not bother them if, out of 200 kids, 15 
of them came from that same high school, when I have 50 high 
schools in my district.
    Admiral Breckenridge. Mr. Chairman----
    Mr. Cummings. And we have 435 districts. I would be so 
upset I wouldn't know what to do, if I were in your position. I 
am just curious, did I miss something? I am quiet; I want to 
hear it.
    Admiral Breckenridge. Mr. Chairman, if I may revise my 
answer.
    Mr. Cummings. Please.
    Admiral Breckenridge. The intent of my response, Mr. 
Chairman, was right now each Congressman and Congresswoman has 
a set number of nominations. If, from your district, sir, we 
were to have--and I heard one of the questions, that there was 
an over-subscribing for Naval Academy, too many apply for that. 
If, within that, those were the top candidates, there is no 
barrier for whatever portion of that over-subscription entering 
the Academy to enter the Coast Guard Academy.
    And, yes, sir, we would be concerned if we had 15 from one 
high school. I did talk about the fact that we are homogenous, 
and that represents a category of homogenous thinking coming 
out of any one institution. So, yes, we do want broader 
representation, Mr. Chairman.
    Mr. Cummings. I am sorry. Ms. Richardson, please.
    Ms. Richardson. Thank you, Mr. Chairman.
    I am going to build upon what the Chairman was just saying, 
and also Mr. Taylor here. Ma'am, Rear Admiral, to say that you 
are doing better than some other academy, in my opinion, is not 
good enough, and let me tell you why. African Americans, you 
have 7 out of 206. That is 3.3 percent.
    I don't think you should be striving for being better than 
some other academy. You should be striving to do a good job. 
And whether that happens to be 10 points better than another 
academy or 20 points better, so be it. But you shouldn't set 
yourself to a standard that, in my opinion, is unacceptable.
    Total minorities, you have 29 out of 206. That is 14 
percent. This Country right now is almost 50 percent minority. 
So for you saying you are proud about being 14 percent to us is 
not reflective of what this Nation is about.
    So when you just said you are happy to have top candidates, 
what makes a person a top candidate?
    Admiral Breckenridge. Ma'am, if I may go back to my opening 
statement, where I set the three cornerstones of why we think 
we need to be more diverse, I did address the issues. We are 
not satisfied with where we are right now, and I stated that 
emphatically in my oral statement. I don't think we should be 
bound by numbers. We are not reflective of the American public 
and we need to be reflective of the American public. We would 
like to be the best, the most diverse organization, because we 
think that will make us serve the American public and our 
Nation even better. So we are not satisfied with where we are.
    Ms. Richardson. So then your opening statement should be 
consistent with the answers to your questions, because the 
answer to the question was not consistent with that. Let me 
build upon, because you haven't answered my question yet, so 
let me drill down even further. Is it important to know how to 
swim to be in the Coast Guard?
    Admiral Breckenridge. We do have swimming requirements that 
come in at our assession programs, but we will teach people how 
to swim.
    Ms. Richardson. Okay. Let me tell you something about that. 
My district, my former city council district, I have one 
swimming pool. And kids fight to get into that swimming pool, 
literally fight to get into it. So you say, oh, we will teach 
people. Okay. So if a young person has an opportunity to choose 
between going into the Marines or West Point or wherever they 
are going to go, and they have got to come to the Coast Guard 
and learn how to swim, where they have never in their lives had 
an opportunity to swim, you are not comparing apples to apples 
here; and that is what some of my colleagues are talking about.
    When you talk about it is okay to get top candidates from 
whatever school, you know, Chadwick in California, where they 
might have a swimming pool on every corner, and then you come 
to my district, where maybe we might only have one or two 
swimming pools, it is difficult for that candidate pool to rise 
to the level.
    Let's talk about grades. In my district, Los Angeles 
Unified School District, the second largest school district in 
the Country, they speak over 200 languages. So to say Joe Blow 
kid has the same opportunity as someone else is not always the 
case.
    So what we are striving to help you understand is, by being 
Members of Congress, by being representative of our public, we 
have a good sense of what some of these challenges are and 
maybe some good suggestions of how we can work with you to 
better equalize the pool that you have.
    Admiral Breckenridge. Ma'am, we would welcome your 
insights. And if I don't appear receptive, then I am not 
communicating well, because I am receptive. We do want to 
broaden out.
    But the reality, if I can just talk about the Academy. It 
is not an entry requirement to be able to swim. I personally 
was not a strong swimmer. Had I been around water--I had seen 
water, I had been at the ocean, but I was not a swimmer when I 
entered the Coast Guard. In fact, at Officer Candidate School I 
was put in remedial swimming.
    It is a requirement, because we operate in and around the 
water, that I at least be able to save myself if something 
happened to me when I am in the water. Now, beyond that, for 
some of our ratings, our rescue swimmers obviously have to be 
very strong swimmers.
    To go specifically to the question that you asked about, 
what makes someone competitive, what we use at the Academy, 
what is called the whole person concept. It is true that we 
have a strong academic requirement. I talked about people 
having a strong foundation in math. Our first semester at the 
Academy, they have to take 21 hours. That is the most stringent 
of any of the academies. And we lose students at the end of the 
first year due to academics. We want to make sure that we are 
selecting people and preparing people to be successful.
    But it isn't just looking at SAT scores, ACT scores, or 
what high school they come from. We look at what kinds of 
activities are they in. We look at the leadership opportunities 
that they have looked at. And when we compare what high schools 
they come from, as I am sure you aware, ma'am, there are a 
number of normative skills that allow you to look across high 
schools. What we are really looking for is if they have the 
foundation, because we want them to be successful. If they 
don't, if it doesn't look like that at the start, to get right 
in the Academy, we talk to them about our preparatory programs 
and whether they would be interested in those opportunities.
    Ms. Richardson. Excuse me. I am 35 seconds over, so let me 
close with this point. I am not suggesting that members of the 
Coast Guard don't need to know how to swim. Clearly, they do.
    What I am trying to explain to you is I am a good movie 
buff. For example, I saw The Guardian. And if I am a kid who 
doesn't know how to swim or has limited swimming ability, that 
kid may hesitate to go to your academy, versus another one, 
just from what they have seen and what they have watched. And 
what we are trying to explain to you is that by having a 
greater degree of outreach, by having a greater degree of 
involvement of your Members of Congress, if we--Mr. Taylor 
asked you, point blank, would you be supportive of us being 
involved in your process in terms of applications and the 
answer was no.
    So my point to you is what we are trying to convey to you 
is by our involvement, we can help you from an outreach 
perspective to help young people to understand what they can do 
to prepare so they will be open to consider your academy and to 
be better applicants when they do apply.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Admiral Breckenridge. Mr. Chairman, may I respond?
    Mr. Cummings. Yes.
    Admiral Breckenridge. I appreciate that very much and we 
welcome your assistance. We welcome applicants through the 
Members of Congress.
    I think where we have a difference is whether it has to be 
through a nomination process to make the difference that we are 
talking about. I believe we all have the same goal of opening 
these opportunities up to find every American out there who 
aspires to become a member of any part of our services, that we 
afford the visibility of those opportunities and the 
opportunity to access those opportunities. So we welcome that.
    Ms. Richardson. Do you have an urban recruitment plan?
    Admiral Breckenridge. That is our SMART program, ma'am.
    Ms. Richardson. You do. I would like to see some info about 
it. Thank you.
    Mr. Cummings. How much money do you have in your budget for 
recruitment, do you know?
    Admiral Breckenridge. I don't have the Academy figures 
right in front of me, but it is $18 million for our recruiting 
command. That is what is in their budget.
    Mr. Cummings. So, in other words, $18 million to recruit 
200 people?
    Admiral Breckenridge. No, sir. That is our total 
requirements across--that is predominantly for our enlisted and 
our non-Academy sources, both officer, enlisted, and civilian, 
sir.
    Mr. Cummings. All right. One of the things, as we get to 
Mr. Gilchrest, you know, I know that you have concerns about 
the proposal that Mr. Oberstar and I submitted, but I want you 
to understand. You said something a moment ago about how you 
would hope that the Congress would have some effect with regard 
to sitting on the board and what have you. And that may be 
true, but let me tell you what happens here, say, for example, 
in my district. I am able to reach people that you will never 
reach. Hello?
    Admiral Breckenridge. Yes, Mr. Chairman. We agree with 
that.
    Mr. Cummings. I am just telling you I am able to reach 
people that you will never reach. I don't care how much money 
you have, you will never reach them. And so what congress 
people are able to do is reach into a neighbor like the one I 
live in, in the inner city of Baltimore, and see that little 
fellow and actually almost recruit him for, say, the Naval 
Academy or what have you.
    So if you have 435 of us, plus, reaching and pulling folks 
that might not even normally even consider the Coast Guard, 
that is very, very significant, and I don't think that that 
needs to be downplayed, because it is very serious.
    Now, the money that you have, $18 million, I realize that 
is supposed to be spread amongst a lot of responsibilities, 
but, again, I think, just to kind of pooh-pooh the proposal 
which is similar to the one that we use for the Naval Academy, 
the Army, and all the other academies, I think we need to be 
very careful with that because, again, what we want is a very 
diverse corps of leaders. We live in a diverse Country, so it 
makes sense for the morale of the institution. But it makes 
sense for something else: It makes sense to make sure that 
somebody has something that they can even dream about.
    Basically what you have said here, to some degree, is that 
they don't even have it to dream about because they don't know 
about it.
    Admiral Breckenridge. I concur, Mr. Chairman. And we do 
want those----
    Mr. Cummings. I am sorry?
    Admiral Breckenridge. I concur, Mr. Chairman. We do want 
those individuals to have dreams.
    Mr. Cummings. And I don't even know your story. I don't 
know your story, but I am sure that at some point somebody 
introduced the Coast Guard to you, or you would not be the 
great officer that you are today. Somebody had to give that to 
a young 18 year old who may not have even been thinking about 
military. I don't know.
    Admiral Breckenridge. Yes, sir.
    Mr. Cummings. But you are here today.
    Admiral Breckenridge. I am.
    Mr. Cummings. But the problem that I have is that if we 
don't open up and show people things, and show young people 
things, they will go a lifetime not developing into a rear 
admiral and, therefore, depriving themselves of certain 
development and depriving us as a Country and the world of the 
gifts that they bring.
    Admiral Breckenridge. Yes, Mr. Chairman, or not even 
considering the opportunity that might exist.
    Mr. Cummings. That is right.
    Admiral Breckenridge. And, again, we welcome the 
partnership. We would like the candidates from Members of 
Congress.
    Mr. Cummings. I got you.
    Admiral Breckenridge. Our view is whether it has to be at 
the point of a nomination. Could we not take it up to that 
point and use a different process? Does it have to be the 
nomination for Congress to reach out and help us provide that 
visibility?
    And, if I may, Mr. Chairman, beyond just the Academy, 
remember, the Academy, although it is more significant than the 
other services, is only 50 percent of our officer corps; the 
rest of it comes from within our workforce and the seven other 
programs that we have that go to collegiate institutions. The 
reason the 70 percent is so high or is at 70 percent for the 
Academy is because we don't compete as well.
    We get some very fine individuals who do have dreams and 
want to join the Coast Guard, and they are successful with 
that. But we are not getting the diversity that we need from 
those institutions, or from the pools that we are getting, not 
just the institutions--it is not their fault.
    And when we look at the scholarship programs that we offer 
to students at the two-year point through our CSPI program, 
where we will pay the remainder of their college for them and 
they will go directly to the Officer Candidate School, we would 
love to have some assistance finding some additional candidates 
for all of those programs, so not just the Academy.
    Also, our enlisted force. While we are doing well, 30 to 39 
percent, should we be satisfied with that? Absolutely not. So 
we would welcome any increase across any part of our workforce, 
including our civilian workforce.
    Mr. Cummings. Mr. Gilchrest.
    Mr. Taylor. Mr. Chairman, could I ask what I hope would be 
a timely follow-up?
    Mr. Cummings. Mr. Taylor, yes.
    Mr. Taylor. Admiral, I am going to throw four names at you: 
Commandant Mundy, CNO Mike Border, Chairman of the Joint Chiefs 
Colin Powell, Chairman of the Joint Chiefs Shali Kashvili. All 
got to the top of their careers through sources other than 
their respective academies.
    I am curious, in the Coast Guard, your last three 
commandants, were they all Academy grads?
    Admiral Breckenridge. Yes, sir, I believe they were.
    Mr. Taylor. The point is, Mr. Chairman, is an opportunity 
to be an officer about to get to the top----
    Admiral Breckenridge. I would point out that Vice Admiral 
Cray is not.
    Mr. Taylor. Okay.
    Admiral Breckenridge. Nor am I, sir.
    Mr. Taylor. Okay, thank you very much.
    Mr. Cummings. Mr. Gilchrest, I want to thank you for your 
patience.
    Mr. Gilchrest. That is the Eastern shore, Elijah. We are 
patient over there. We wait for the sun to come up before we 
milk those cows.
    And Mr. Cummings publicly announced his assumption that he 
is going to Heaven, so I just wanted all of us to recognize 
that.
    [Laughter.]
    Mr. Gilchrest. That is confidence, Elijah.
    I will say I keep in touch with the people I served with in 
Vietnam. I was in the Marine Corps, and I remember the swimming 
classes were not very pleasant back then, but we learned how to 
swim. The people from all across the Country--urban, rural, 
suburban--they put you in those cattle cars, ran you down to 
the pool and they threw you in with all your gear on.
    But the fellow I was talking to, Sergeant Bathurst, he 
stayed in the Marine Corps for 36 years, retired as a colonel. 
This is a travesty, I suppose, to say if there is any old 
jarheads in the room, but he and I both agree that if we had it 
to start all over again, we would have gone into the Coast 
Guard.
    And what he is doing to his grandchildren is encouraging 
them, if they have the proclivity or the motivation to go into 
a military service, is to go into the Coast Guard, because we 
remember as former Marines 40 years ago, we used to train and 
train and train. And we went to Vietnam, we went to the 
Dominican Republic, we did these other things, but you spend 
months sometimes just training. The Coast Guard, when they 
train, they are out there on the high seas and they are 
enforcing fishing laws, they are saving lives.
    By the way, I know the Chairman mentioned this about the 
Coast Guard people that were lost in the Pacific, and I just 
wanted to add my condolences to them and to the Coast Guard 
service for all of that.
    One other quick comment, though, to the Master Chief. You 
said that this was a once in a lifetime opportunity to testify 
before Congress. Am I missing something? You don't have enough 
opportunities? Should you go down to the Antarctic and get on 
that icebreaker? You needed to come to the--I am just kidding. 
I am in a rare mood this afternoon.
    Chief Isherwood. I would like to answer that, sir.
    Mr. Gilchrest. Yes, sir.
    Chief Isherwood. If you can get me on an icebreaker in 
Antarctica, I would take it right today.
    Mr. Gilchrest. Okay.
    Chief Isherwood. Going further, I didn't say once in a 
lifetime, I said an opportunity of a lifetime.
    Mr. Gilchrest. Oh, all right. Okay. I agree.
    But the point is what we are trying to do here, what the 
Committee is trying to do is to figure out, and you are trying 
to figure out, how we can enhance the diversity, a reflection 
of this great Country, which is in essence, to quote Walt 
Whitman, our Country is the race of races. We represent the 
diversity of the world, and it is that diversity that makes us 
who we are as a Nation and can actually reflect, I think, and 
enhance the bounty of ingenuity, courage, intellect, and 
initiative of any branch of service. I experienced that when I 
was in the service.
    So if you could just ponder, and maybe answer it now or 
think about it and come back to us later, other than all of the 
various methods that you are trying to use to find those young 
people in inner cities that don't know how to swim and are 
afraid of water, but maybe make great Coast Guard officers, is 
there a way to sort of think out of the box for some hybrid 
nomination process for the Coast Guard that this Congress that 
is willing to move forward on this would like to help you out 
with?
    Admiral Breckenridge. Sir, we have actually provided some 
drafting assistance with some language on a hybrid, should that 
be the desire of Congress.
    Mr. Gilchrest. Thank you very much.
    Admiral Breckenridge. If I may, sir, the question you asked 
or the comment you made about opportunities for individuals, 
and particularly in the inner city, I would like to point out 
that we could also use assistance with our civilian workforce. 
As we look at opportunities that exist, much of the 
conversation here has focused on the military component. We 
have 7,500, and growing, civilians in our population who don't 
have to go to sea.
    Now, some of them, certainly, we have contractors who go to 
sea and support; sometimes they go out in a support mode and do 
in fact deploy with our units. But we have many, many different 
kinds of opportunities and we could certainly use enhanced 
diversity in that population also, sir.
    Mr. Gilchrest. Well, thank you very much for your service 
and your informative testimony, both of you.
    Admiral Breckenridge. Thank you very much, sir.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Tell me, what are your specific objectives? You know, you 
talked a lot about the CSPI program and we have gotten a number 
of memos from the Coast Guard generally talking about what they 
wanted to do as far as reaching out. Do you have some goals? I 
mean, there is not a lot that I agreed with Ronald Reagan 
about, but he did say how do you say something and verify? I 
want to make sure that if there is--that there should be some 
kind of accountability. I am trying to figure out where we are 
going with all of this. Do you follow me?
    Admiral Breckenridge. I am not following your question, Mr. 
Chairman.
    Mr. Cummings. In other words, what I am saying to you is 
that what are the specific objectives that are to be achieved 
through the partnering of a Flag officer or SES staff member 
with a minority-serving, Hispanic-serving, or Tribal Council 
institution?
    The Navy challenges their senior officers not just to visit 
minority schools, but to recruit minority officers for their 
service. What is the Coast Guard doing to challenge each Flag 
officer and commanding officer of your major units, such as air 
stations, sectors, cutters, buoy tenders, et cetera?
    Private corporations, in many instances, part of their 
promotion scheme is they look to see how diverse their managers 
are, how their managers are doing with regard to diversity and 
promotions and what have you. I am just wondering do you have 
objectives. I mean, are we just sort of flying by the seat of 
our pants or do we have some objectives here?
    Admiral Breckenridge. Sir, as we look at this outreach 
initiative, it is building on some of the past experiences that 
we have had in working with minority-serving institutions. Our 
initial goal is to go in at the senior level of the institution 
and begin working with them down through the deans to make sure 
that they are aware of opportunities within the Coast Guard, 
especially our scholarship programs.
    We think we have something to offer these institutions and 
we are looking for opportunities for the institutions to work 
with and help us as we look at the diversity, and opportunities 
to help those young people you were describing, Mr. Chairman, 
to look at their dreams and see whether the Coast Guard is part 
of their dream and if we can help make that dream a reality.
    With that, quite frankly, our Flags and SESes are all very 
nice people, very smart people, but we are not relevant to a 
student population. So in addition to the Flag and SES, we are 
going to have mid-grade and junior officers linked up for 
relevancy to that workforce or to that student population that 
can answer their questions, that can avail them of the 
opportunities that exist, that can mentor them or invite them 
to visit our units and so forth.
    We are going to focus initially on two-year institutions. 
We have a list of schools that we are looking to work at for 
the reorientation of our CSPI program, Mr. Chairman, as well as 
we are very much focused on two-year institutions as a feeder 
to our Coast Guard Academy, which we believe no other academy 
has a program like that; that they will go in and set up a 
relationship with a two-year school that at the one-year point 
we would select students.
    We tried it with four-year institutions and, quite 
understandably, they are interested in those students 
continuing and graduating from their schools. At a two-year 
institution, those institutions are looking for their student 
populations to go on to a four-year college and complete their 
degrees, hopefully, or they will go out into the workforce. We 
would like to afford the opportunity for some portion of that 
population to understand the opportunities that exist at the 
Coast Guard Academy and, after one year, go to the Coast Guard 
Academy and complete their degree there, Mr. Chairman.
    Mr. Cummings. Let me conclude this hearing by saying this, 
that one of the things that I think as you get older and you 
begin to face your own mortality and you begin to look at 
people who had been on the battlefield of civil rights for a 
long time and then they die. They die. They fight, they fight 
and fight, and then they die. And then a new group of soldiers 
comes along to fight the fight.
    What I am getting at is the reason why I asked about goals 
is because we can be sitting here 30 years from now making 
these same arguments. I won't be here, I will be gone. In some 
kind of way I think it helps to have something. I mean, we can 
talk from now until forever, but the question is, what are we 
doing or what do we have in place to measure what we are doing 
so that we know that there is progress being made? What are the 
specific programs?
    I understand that there are some things that people will 
benefit from perhaps some things the Coast Guard may do and 
they may not end up in the Coast Guard. I understand that. But 
at the same time our goal is to get more people, get a more 
diverse force. So I don't know how you do that without having 
some type of measuring tool. I just don't.
    Admiral Breckenridge. Yes, Mr. Chairman.
    Mr. Cummings. And so far--I am going to be very frank with 
you--I have not, maybe I missed it, maybe I wasn't listening 
carefully, but I haven't heard anything about a measuring tool 
out of everything you have said, every syllable. I think you 
have been very forceful. I think you have carried the weight 
for the Coast Guard very nicely, and I have tried to be polite. 
I am not usually this polite in other hearings.
    Admiral Breckenridge. I appreciate this, Mr. Chairman.
    Mr. Cummings. But, to be honest with you, I am getting a 
little frustrated because I don't feel--I guess I don't want to 
waste my time and I don't want to waste yours, nor do I want to 
waste the Committee's time, but I just feel like we have gotten 
a lot, you have said a lot, but I don't know where we are going 
with it and how we measure it. All right?
    Admiral Breckenridge. Mr. Chairman, if I may, let me 
provide you some tangible numbers.
    Mr. Cummings. Sure.
    Admiral Breckenridge. We have 61 tabs for our College 
Student Precommissioning Initiative. That is not as diverse a 
pool as we want. I was very involved in that when I was at the 
Recruiting Command and, in fact, I was responsible for 
expanding it to its current definition. It is now yielding an 
outcome. While we get some very good people, it is not getting 
us into those very neighborhoods and that very exposure, sir, 
that you talked to us about.
    So I look at the CSPI program, I want that more than 50 
percent. In fact, my goal is to get it up to 60 to 75 percent. 
If I look at the tabs that we are currently using for the 
preparatory program for the Coast Guard Academy, I believe that 
we should be at least at 70 to 75 percent of those being other 
than white males, sir. So is that specific enough for you, Mr. 
Chairman?
    Mr. Cummings. That is better. That is much better. And if 
you have anything else--we are going to have to end this 
hearing.
    I am going to have to end the hearing, but I may follow up 
with a few questions. But thank you all very much.
    Admiral Breckenridge. Thank you very much, Mr. Chairman. 
And thank you to the Committee.
    Mr. Cummings. This ends the hearing. Thank you.
    [Whereupon, at 3:32 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 45024.029
    
    [GRAPHIC] [TIFF OMITTED] 45024.030
    
    [GRAPHIC] [TIFF OMITTED] 45024.031
    
    [GRAPHIC] [TIFF OMITTED] 45024.032
    
    [GRAPHIC] [TIFF OMITTED] 45024.033
    
    [GRAPHIC] [TIFF OMITTED] 45024.034
    
    [GRAPHIC] [TIFF OMITTED] 45024.035
    
    [GRAPHIC] [TIFF OMITTED] 45024.036
    
    [GRAPHIC] [TIFF OMITTED] 45024.037
    
    [GRAPHIC] [TIFF OMITTED] 45024.038
    
    [GRAPHIC] [TIFF OMITTED] 45024.039
    
    [GRAPHIC] [TIFF OMITTED] 45024.040
    
    [GRAPHIC] [TIFF OMITTED] 45024.041
    
    [GRAPHIC] [TIFF OMITTED] 45024.042
    
    [GRAPHIC] [TIFF OMITTED] 45024.043
    
    [GRAPHIC] [TIFF OMITTED] 45024.044
    
    [GRAPHIC] [TIFF OMITTED] 45024.045
    
    [GRAPHIC] [TIFF OMITTED] 45024.046
    
    [GRAPHIC] [TIFF OMITTED] 45024.047
    
    [GRAPHIC] [TIFF OMITTED] 45024.048
    
    [GRAPHIC] [TIFF OMITTED] 45024.049
    
    [GRAPHIC] [TIFF OMITTED] 45024.050
    
    [GRAPHIC] [TIFF OMITTED] 45024.051
    
    [GRAPHIC] [TIFF OMITTED] 45024.052
    
    [GRAPHIC] [TIFF OMITTED] 45024.053
    
                                    

</pre></body></html>
